1a
APPENDIX A
IN THE COURT OF APPEALS OF
THE STATE OF WASHINGTON
______________________________________________
THE PRESBYTERY OF SEATTLE, a Washington
nonprofit corporation; THE FIRST PRESBYTERIAN
CHURCH OF SEATTLE, a Washington nonprofit
corporation; ROBERT WALLACE, President of the
First Presbyterian Church of Seattle, a Washington
nonprofit corporation; and WILLIAM LONGBRAKE,
on behalf of himself and similarly situated members
of First Presbyterian Church of Seattle,
Respondents,
v.
JEFF SCHULZ, ELLEN SCHULZ, LIZ
CEDERGREEN, DAVID MARTIN, LINDSEY
McDOWELL, GEORGE NORRIS, NATHAN ORONA,
and KATHRYN OSTROM, as trustees of The First
Presbyterian Church of Seattle, a Washington
nonprofit corporation,
Appellants.
______________________________________________
THE PRESBYTERY OF SEATTLE, a Washington
nonprofit corporation; and
THE FIRST PRESBYTERIAN CHURCH OF
SEATTLE, a Washington nonprofit corporation,
Respondents,
v.
JEFF SCHULZ and ELLEN SCHULZ, as individuals
and as the marital community thereof,

2a
Appellants.
______________________________________________
No. 78399-8-1
DIVISION ONE
PUBLISHED OPINION
Filed: October 7, 2019
LEACH, J., — This consolidated appeal involves a
church property dispute and a severance agreement
dispute. In Presbytery I, Jeff and Ellen Schulz, former
copastors of the First Presbyterian Church of Seattle
(FPCS), and six former trustees of FPCS’s board of
trustees (Board) (together appellants) appeal the trial
court’s declaratory judgment in favor of FPCS, the
Presbytery of Seattle (Presbytery), which is authorized
to act on behalf of the Presbyterian Church U.S.A.
(PCUSA), and two members of the Presbytery’s administrative commission (AC) (together respondents). Appellants contend that the trial court erred in deferring
to the AC’s determination assuming original jurisdiction over FPCS, rejecting FPCS’s disaffiliation from
PCUSA, and finding that any interest FPCS had in
church property was held in trust for the benefit of
PCUSA. In Presbytery II, the Schulzes appeal the trial
court’s declaratory judgment in favor of Presbytery
and FPCS, claiming that the trial court erred in deferring to the AC’s determination that their severance
agreements with FPCS were invalid and unenforceable.
In Presbytery of Seattle, Inc. v. Rohrbaugh,1 the
Washington Supreme Court established that a civil
1

79 Wn.2d 367, 48 P.2d 615 (1971).

3a
court must defer to the decision of the highest tribunal
of a hierarchical church in a matter involving a church
property dispute. To ensure the First Amendment
guarantee to the free exercise of religion, Washington
courts have extended Rohrbaugh to any civil dispute
in a hierarchical church with an internal dispute resolution process. Because no genuine issue of material
fact exists about whether the Presbyterian Church is
hierarchical or whether it has a binding dispute resolution process, the trial court properly deferred to the
AC’s determinations about the property and severance
agreement disputes. We affirm.
FACTS
From 1983 until November 15, 2015, FPCS’s congregation was ecclesiastically affiliated with PCUSA.
FPCS filed its first articles of incorporation in 1874
and its restated articles of incorporation in 1985.
These articles recognized FPCS’s governing bodies as
its “Session” and Board. Its Session, comprised of ministers, elders, and deacons, governed the congregation’s ecclesiastical matters. Its Board, comprised of
church members, governed the FPCS’s business operations, real and personal property, and “all other temporal affairs.”
FPCS purchased its first parcel of real estate in
1905 and added additional parcels over the years until
it had accumulated all of its current real estate located
on 7th Avenue in downtown Seattle. It purchased the
property with funds from its members. Title to its
property has remained in its name as a nonprofit corporation. Neither Presbytery nor PCUSA has financially contributed to its property.
In November 2015, FPCS told Presbytery that its
Session was going to vote on whether to disaffiliate

4a
from PCUSA and seek affiliation with another Presbyterian denomination. And its Board was going to vote
on whether to amend the articles to remove all references to PCUSA. On November 15, the Session approved FPCS’s disaffiliation from PCUSA, and the
Board approved an amendment to the articles removing any reference to PCUSA.
On November 17, Presbytery formed the AC to investigate FPCS’s disaffiliation. On February 16, 2016,
the AC issued a report assuming “original jurisdiction”
over FPCS based on its finding that “the governing
board of FPCS (the FPCS session) is unable or unwilling to manage wisely its affairs.” This report found
that the 2015 amendments to FPCS’s articles and bylaws were improper and ineffective, leaving the prior
articles and bylaws in force. And it rejected FPCS’s
disaffiliation, stating that FPCS remained a part of
PCUSA because PCUSA had not dismissed FPCS,
which the church constitution authorized only PCUSA
to do. It also ousted certain FPCS members from
FPCS’s Session and Board. And it elected church officers, appointed an individual to handle administrative matters, and called for an audit of FPCS’s finances. It stated, “All property held by or for FPCS—
including real property, personal property, and intangible property—is subject to the direction and control
of the [AC] exercising original jurisdiction as the session of the church.”
A day after the AC issued its report, respondents
filed a lawsuit against appellants (Presbytery I).
Among other things, respondents sought a declaratory
judgment stating that the AC’s report was “conclusive
and binding” and that any “interest FPCS has in
church property is held in trust for the benefit of
[PCUSA].” On March 10, 2016, respondents asked the

5a
trial court to grant partial summary judgment on its
declaratory judgment claim. Appellants opposed the
request and asked for a CR 56(f) continuance. They
claimed respondents had not yet responded to their
discovery request about whether PCUSA was hierarchical for purposes of civil disputes. Appellants also
asked for a preliminary injunction to stop Presbytery
from asserting control over FPCS’s corporate affairs
and property.
In May 2016, the trial court ruled in respondents’
favor on all three requests. It concluded that (1)
PCUSA is a hierarchical church and the AC’s determinations are conclusive and binding on the Session,
trustees, and congregation of FPCS, (2) the AC’s February 16, 2016, findings and rulings are conclusive and
binding, (3) the 2015 purported amendments to the bylaws and articles of incorporation “are void and without effect,” (4) FPCS holds all church property in trust
for the benefit of the PCUSA, and (5) the AC is the current governing body of FPCS. Appellants asked the
court to reconsider its orders granting partial summary judgment, denying a CR 56(f) continuance, and
denying a preliminary injunction. In a June 20, 2016,
order, the trial court denied appellants’ request to reconsider its denial of the CR 56(f) motion, asked for
briefing “on whether it is factually at issue that
[PCUSA] is a hierarchical church,” and reserved ruling
on reconsideration of its denial of the request for a preliminary injunction.
On June 30, after considering appellants’ additional briefing, the trial court denied the remainder of
their reconsideration requests. The trial court struck
their third party complaint and dismissed their

6a
Consumer Protection Act2 claim. Appellants voluntarily dismissed claims for defamation, intentional interference with contractual relations, slander of title,
trademark infringement, and ultra vires actions. The
parties settled their remaining claims and agreed to a
stipulated final order and judgment entered on August
16, 2017. Following these orders, respondents assumed control of FPCS and its property.
In September 2016, Presbytery and FPCS sued the
Schulzes and asked the trial court to declare the severance agreements between the Schulzes and FPCS
unenforceable (Presbytery II). The Schulzes became
the copastors of FPCS in January 2006. On November
10, 2015, the Schulzes and the Board executed the
Schulzes’ severance agreements. These agreements
had the stated purpose of encouraging the Schulzes to
remain as pastors of FPCS, “including in the event of
any conflict between FPCS, its Session, and its Congregation, on the one hand, and Presbyterian Church
(U.S.A.), or any Presbytery, Synod, Administrative
Commission, or affiliate (other than FPCS) of Presbyterian Church (U.S.A.) (collectively “PCUSA”), on the
other hand.” They stated that if FPCS, while under
the control of PCUSA and Seattle Presbytery, terminated the Schulzes’ employment other than for “Good
Cause,” as defined by the agreements, FPCS would (1)
pay the Schulzes their “Regular Compensation” for
two years or until they obtained comparable employment and (2) forebear for three years from the remedies FPCS had available under its 2006 home equity
sharing agreement with the Schulzes. The severance
agreements limited “good cause” to the Schulzes’ commission of certain identified misconduct like
2

Ch. 19.86 RCW.

7a
dishonesty, the use of illegal drugs, and moral turpitude that harmed FPCS’s reputation.
On August 25, 2016, the AC issued a supplemental
report stating, (1) the FPCS Board that entered into
the severance agreements was not “validly constituted,” (2) the severance agreements constituted a
“change in the terms of call” that required the congregation’s and the presbytery’s approval, neither of
which the Schulzes sought, so the severance agreements were invalid, (3) the Schulzes “ended their pastoral relationship with FPCS when they voluntarily
renounced the jurisdiction of the [PCUSA]” effective
December 16, 2015, at which time they ceased to serve
FPCS in good faith and good standing, (4) the severance agreements’ good cause standard “cannot replace
the requirements placed upon teaching elders by the
Book of Order,” (5) even if the good cause standard applied, FPCS had good cause to terminate the Schulzes’
employment due to alleged dishonesty and misconduct, and (6) the Schulzes did not sign a release of possible claims against FPCS, so payment under the
agreements was not due.
In November 2016, after PCUSA and FPCS sued
the Schulzes, FPCS stopped paying the Schulzes their
regular pastoral compensation. On November 18, the
Schulzes filed counterclaims against FPCS for breach
of contract and willful withholding of wages. PCUSA
and FPCS asked the trial court to grant them summary judgment, claiming that the AC “determined
that [FPCS] has no obligations under the Severance
Agreements. A civil court must defer to the [AC’s]
judgment.” The trial court granted this request. It decided that the AC’s determinations were “conclusive
and binding.” It concluded the severance agreements
were “invalid, inapplicable, and unenforceable”

8a
because (1) they constituted “a change in the terms of
call” for the Schulzes, which required FPCS’s and
Presbytery’s congregations’ approval, (2) the Schulzes
terminated their pastoral relationships when they renounced the jurisdiction of PCUSA, (3) the Schulzes
ceased to serve in good faith and standing as pastors
of FPCS because they renounced jurisdiction, and (4)
the severance agreements’ attempt to replace the
standards of pastoral conduct in the “Book of Order”
with a “good cause” standard was improper.
The trial court entered final judgment in Presbytery
II on April 3, 2017. The Schulzes appealed to the
Washington Supreme Court on April 21, 2017. The
trial court entered final judgment in Presbytery I in
August 2017. Appellants again appealed to our Supreme Court. The Supreme Court consolidated Presbytery I and Presbytery II. It then transferred the consolidated case to this court.
STANDARD OF REVIEW
This court reviews an order granting summary
judgment de novo and performs the same inquiry as
the trial court.3 It considers all facts and reasonable
inferences in the light most favorable to the nonmoving party.4 And it affirms summary judgment only
when the evidence presented demonstrates no genuine
issue of material fact and the moving party is entitled
to judgment as a matter of law.5
Mohr v. Grant, 153 Wn.2d 812, 821, 108 P.3d 768
(2005).
3

Wilson v. Steinbach, 98 Wn.2d 434, 437, 656 P.2d 1030
(1982).
4

5

Steinbach, 98 Wn.2d at 437.

9a
ANALYSIS
Stare Decisis Requires That This Court Follow
Presbytery of Seattle, Inc. v. Rohrbaugh
Both appellants and the Schulzes maintain that
stare decisis does not bar this court from reexamining
the compulsory deference approach our Supreme
Court adopted in Rohrbaugh because the United
States Supreme Court’s decision in Jones v. Wolf6
changed Rohrbaugh’s legal underpinnings. We disagree.
In Rohrbaugh, the pastor and a third of the members of Laurelhurst United Presbyterian Church of Seattle voted to withdraw as a body from the United
Presbyterian Church.7 These members asked the
Presbytery of Seattle to strike Laurelhurst from its
rolls and authorize them to use the church property for
their own purposes.8 Presbytery refused and advised
that the church constitution did not authorize members of an affiliated church to withdraw as a body.9
The members maintained the fact that they were the
record titleholders of the property entitled them to use
and control it.10 In examining this issue, the Washington Supreme Court adopted the rule that the United
States Supreme Court articulated in Watson v.
Jones:11
6

433 U.S. 595, 99 S. Ct. 3020, 61 L. Ed. 2d 775 (1979).

7

Rohrbaugh, 79 Wn.2d at 367-68.

8

Rohrbaugh, 79 Wn.2d at 368.

9

Rohrbaugh, 79 Wn.2d at 368.

10

Rohrbaugh, 79 Wn.2d at 369.

11

80 U.S. (13 Wall.) 679, 20 L. Ed. 666 (1871).

10a
[T]he decision of the highest tribunal of a hierarchical church to which an appeal has been
taken should be given effect by the courts in a
controversy over the right to use church property. [And] in the absence of fraud, where a
right of property in an action before a civil court
depends upon a question of doctrine, ecclesiastical law, rule or custom, or church government,
and the question has been decided by the highest tribunal within the organization to which it
has been carried, the civil court will accept that
decision as conclusive.[12]
Our Supreme Court concluded that the record titleholder of the property was The First United Presbyterian Church of Seattle, the former name of Laurelhurst,
and “a corporation which by its bylaws is subject to the
discipline of the United Presbyterian Church, and is
governed by a Session which must act in accord with
that discipline.”13 The court further stated that according to the decision of “the highest tribunal,” the
members “had no right to withdraw from the church
as a body and take with them the name of the church
and its property,” and they “forfeited their right to govern the affairs of the church when they did so.”14 The
court held that because the United Presbyterian
Church is hierarchical, its highest tribunal’s decision
about ownership and control was conclusive.15

12

Rohrbaugh, 79 Wn.2d at 373.

13

Rohrbaugh, 79 Wn.2d at 373.

14

Rohrbaugh, 79 Wn.2d at 371-72, 373.

15

Rohrbaugh, 79 Wn.2d at 367-73.

11a
Eight years after Rohrbaugh, the United States Supreme Court decided Jones. This case involved a dispute over the ownership of church property after the
rupture of a local church affiliated with the Presbyterian Church.16 The Court characterized the Presbyterian Church as a hierarchical organization.17 It framed
the issue as “whether civil courts, consistent with the
First and Fourteenth Amendments to the Constitution, may resolve the dispute on the basis of ‘neutral
principles of law,’ or whether they must defer to the
resolution of an authoritative tribunal of the hierarchical church.”18 The Court defined “neutral principles
of law” as relying on “well-established concepts of trust
and property law familiar to lawyers and judges” and
involving, for example, “the language of the deeds, the
terms of the local church charters, and state statutes
governing the holding of church property, and the provisions in the constitution of the general church concerning the ownership and control of church property.”19
The primary advantages of the neutral-principles approach are that it is completely secular
in operation, and yet flexible enough to accommodate all forms of religious organization and
polity. The method relies exclusively on objective, well-established concepts of trust and
property law familiar to lawyers and judges. It
thereby promises to free civil courts completely

Jones, 443 U.S. at 597.
Jones, 443 U.S. at 597-98.
18 Jones, 443 U.S. at 597.
19 Jones, 443 U.S. at 603.
16
17

12a
from entanglement in questions of religious
doctrine, polity, and practice.[20]
The Court noted that the First Amendment does
not dictate that a State must follow a particular
method of resolving church property disputes. Indeed,
“a State may adopt any one of various approaches for
settling church property disputes so long as it involves
no consideration of doctrinal matters, whether the ritual and liturgy of worship or the tenets of faith.”21 The
Court held that “a State is constitutionally entitled to
adopt neutral principles of law as a means of adjudicating a church property dispute.”22 But if “the interpretation of the instruments of ownership would require the civil court to resolve a religious controversy,
then the court must defer to the resolution of the doctrinal issue by the authoritative ecclesiastical body.”23
Appellants contend that this court should reconsider Rohrbaugh because Jones changed its legal underpinnings. First, Jones states only that unless ecclesiastical doctrine is involved, a State may constitutionally adopt neutral principles of law as a means of
adjudicating a church property dispute; Jones does not
require that states adopt this approach. Second, stare
decisis requires this court to follow Rohrbaugh. “Stare
decisis,” a Latin phrase meaning “to stand by things
decided,” has two manifestations: horizontal stare
20

Jones, 443 U.S. at 603.

Jones, 443 U.S. at 602 (Brennan, J., concurring) (quoting Maryland & Va. Churches v. Sharpsburgh, 396 U.S.
367, 368, 90 S. Ct. 499, 24 L. Ed. 2d 582 (1970)).
21

22

Jones, 443 U.S. at 604.

23

Jones, 443 U.S. at 604.

13a
decisis and vertical stare decisis.24 Under horizontal
stare decisis, a court is not required to follow its own
prior decisions.25 The Washington Supreme Court has
stated that generally, under stare decisis, it will not
overturn its precedent unless there has been “a clear
showing that an established rule is incorrect and
harmful”26 or “when the legal underpinnings of [its]
precedent have changed or disappeared altogether.”27
But “vertical stare decisis” requires that courts “follow
decisions handed down by higher courts in the same
jurisdiction. For example, trial and appellate courts in
Washington must follow decisions handed down by our
Supreme Court and the United States Supreme Court.
Adherence is mandatory, regardless of the merits of
the higher court’s decision.”28
Because our Supreme Court decided Rohrbaugh, it
is binding on this court and the doctrine of vertical
stare decisis does not allow this court to reconsider it.
Church Property Dispute in Presbytery I
Appellants alternatively contend that even if this
court applies Rohrbaugh’s compulsory deference
In re Pers. Restraints of Arnold, 198 Wn. App. 842,
846, 396 P.3d 375 (2017), rev’d on other grounds, 190 Wn.2d
136, 410 P.3d 1133 (2018) (quoting BLACK’S LAW DICTIONARY 1626 (10th ed. 2014)).
24

25

Arnold, 198 Wn. App. at 846.

W.G. Clark Constr. Co. v. Pac. Nw. Reg’l Council of
Carpenters, 180 Wn.2d 54, 65, 322 P.3d 1207 (2014) (quoting In re Rights to Waters of Stranger Creek, 77 Wn.2d 649,
653, 466 P.2d 508 (1970)).
26

27

W.G. Clark Constr. Co., 180 Wn.2d at 65.

28

Arnold, 198 Wn. App. at 846.

14a
approach, the trial court erred in granting respondents
summary judgment because (1) a genuine issue of material fact exists about whether the Presbyterian
Church is hierarchical, (2) FPCS disaffiliated from
PCUSA before the AC issued its report, and (3) the
trial court erred in denying appellants’ motion for a
continuance. We disagree.
A. The Presbyterian Church Is Hierarchical
First, FPCS claims that the trial court erred in deferring to the AC’s report because a genuine issue of
material fact exists about whether the Presbyterian
Church is hierarchical. We disagree.
The parties agree that under Rohrbaugh’s deference approach, courts defer to an ecclesiastical tribunal only if the denomination is hierarchical.29 Appellants rely on Southside Tabernacle v. Pentecostal
Church of God, Pac. Nw. Dist., Inc.30 to show that
whether a church is hierarchical involves question of
fact to be decided by the trial court. But Southside
Tabernacle also states, “Although the hierarchical or
congregational structure is a question of fact, summary judgment is available . . . if the trial court can
say as a matter of law that [a church] is hierarchical.”31
A church is hierarchical when it is “a subordinate
member of some general church organization in which

29

Rohrbaugh, 79 Wn.2d at 371-72.

30

32 Wn. App. 814, 821-22, 650 P.2d 231 (1982).

31

Southside Tabernacle, 32 Wn. App. at 822.

15a
there are superior ecclesiastical tribunals.”32 A church
is congregational when it is “governed independent of
any other ecclesiastical body.”33
The constitution of PCUSA governs the church;
Part II of this constitution, called the Book of Order,
provides the ecclesiastical law of PCUSA. Ordained
Presbyterian minister and teaching elder Scott
Lumsden and the Book of Order state that congregations within the Presbyterian Church are governed by
a hierarchy of councils that include, in ascending order, (1) Sessions comprised of pastors and elders of the
local congregation, (2) presbyteries comprised of all
pastors and at least one elder from each of the congregations within a district, (3) synods comprised of representative pastors and elders from the presbyteries
within a region, and (4) the general assembly comprised of delegations of pastors and elders from the
presbyteries. The Book of Order also states, “The particular congregations of the Presbyterian Church
(U.S.A.) wherever they are, taken collectively, constitute one church, called the church. . . . The relationship to the Presbyterian Church (U.S.A.) of a congregation can be severed only by constitutional action on
the part of the presbytery.”
FPCS relies on the declaration of Reverend Parker
Williamson, an ordained Presbyterian minister. He
stated that the Book of Order acknowledges that
PCUSA is hierarchical for ecclesiastical matters only,
not civil matters. To support his assertion, Williamson
Org. for Preserving the Constitution of Zion Lutheran
Church v. Mason, 49 Wn. App. 441, 447, 743 P.2d 848
(1987).
32

33

Mason, 49 Wn. App. at 447.

16a
refers to provisions from the Book of Order stating that
religious constitutions should not be aided by civil
power and governing bodies of the church do not have
civil jurisdiction. He also notes that PCUSA’s General
Assembly Permanent Judicial Commission has stated
that although one provision in the Book of Order refers
to a higher governing body’s “right of review and control over a lower one,” these concepts must be understood within the context of the “shared responsibility
and power at the heart of Presbyterian order,” not in
hierarchical terms. But whether the Book of Order,
internal tribunals, seminary treatises, or Presbyterian
history characterize the Presbyterian Church as being
hierarchical only for ecclesiastical matters is not relevant when our Supreme Court has adopted the
Rohrbaugh analysis to ensure religious entities receive their First Amendment protections.
To counter Williamson, PCUSA provided the declaration of Laurie Griffith, an elected “Assistant Stated
Clerk of the General Assembly of the [PCUSA] [who is]
empowered, along with other Associate and Assistant
Stated Clerks, to give guidance on Authoritative Interpretations of the Constitution of the [PCUSA].” She
disagreed with Williamson’s conclusion that the
church is not hierarchical for civil matters. She explained in her declaration that the Book of Order establishes the poli[t]y and form of the church. She detailed the levels of the hierarchy of councils governing
the church discussed above, explaining that it is because of the structure of the church that “secular
courts have historically identified the polity of the
[PCUSA] as being hierarchical in nature.” Griffith
stated further, “Chapter 4 of the Book of Order unequivocally establishes that civil matters impacting
church property proceed through the polity as set forth

17a
within the other parts of the Book of Order.” It states
that “all property held by a congregation, a presbytery,
a synod, the General Assembly, or the [PCUSA] “is
held in trust . . . for the use and benefit of the
[PCUSA].”
Additionally, the Washington Supreme Court in
Rohrbaugh described the Presbyterian Church as having a hierarchical structure, and the Unites States Supreme Court in Jones stated that the Presbyterian
Church “has a generally hierarchical or connectional
form of government, as contrasted with a congregational form.”34 This, in addition to Griffith’s interpretation of the Book of Order and the text itself, makes
clear that the Presbyterian Church contains local
churches that are subordinate to PCUSA. No genuine
issue of material fact exists about whether the church
is hierarchical. The trial court did not err in finding
that it was hierarchical.
B. FPCS’s Purported Disaffiliation from
PCUSA before the AC Issued Its Report Does Not
Preclude Application of the Deference Approach
Next, appellants claim that because they lawfully
disaffiliated from PCUSA before the AC issued its report, Rohrbaugh does not require that this court defer
to the AC’s determination. Appellants contend that
here, unlike in Rohrbaugh, the congregation of the entire local church voted to disaffiliate from the national
church and amend its articles to remove PCUSA’s authority. They assert that when FPCS voted to

34

98.

Rohrbaugh, 79 Wn.2d at 373; Jones, 443 U.S. at 597-

18a
disaffiliate on November 15, 2015, PCUSA’s ecclesiastical authority over it ended.
Rohrbaugh, however, requires that a court give effect to the decision of the highest tribunal of a hierarchical church in a controversy over the right to use
church property. This rule applies here. Appellants
do not cite any authority to support that the factual
distinction they identify has legal significance. Because FPCS purportedly disaffiliated from PCUSA before the AC issued its report does not mean that the
trial court erred in deferring to the AC’s decision.
C. The Court Did Not Err in Denying Appellants’ CR 56(f) Motion for a Continuance
Last, appellants assert that the trial court erred in
denying their CR 56(f) request to continue the summary judgment hearing because respondents had not
yet produced all their requested discovery about
whether the Presbyterian Church is hierarchical. We
disagree.
CR 56(f) gives courts discretion to continue a motion for summary judgment to allow further discovery
if the nonmoving party, for good reason, cannot present facts essential to oppose the motion.35 A trial
court may deny a CR 56(f) motion when, “(1) the requesting party fails to offer a good reason for the delay,
(2) the requesting party does not state what evidence
is desired, or (3) the desired evidence will not raise a
genuine issue of material fact.”36 This court reviews a
denial of a motion for a CR 56(f) continuance for abuse
Kozol v. Dep’t of Corr., 192 Wn. App. 1, 6, 366 P.3d 933
(2015).
35

36

Kozol, 192 Wn. App. at 6.

19a
of discretion.37 A court abuses its discretion when it
bases its decision on untenable grounds or reasons.38
Appellants asked respondents to produce all documents related to whether the Presbyterian Church is
a hierarchical denomination, which appellants contend is a material issue that they were unable to develop. Appellants’ trial counsel asked for a threemonth continuance to look “for evidence relating to the
intent and I think the legally cognizable evidence of a
trust. The legally cognizable evidence of the importation of Book of Order provisions into the governance
documents of the Church and of its corporation.”
When the trial court stated that it would need more
information about what appellants were looking for
because it had not heard a reason to give them a continuance, appellants’ counsel stated they wanted to
discover evidence regarding whether PCUSA is hierarchical for civil purposes. We have requests of
PCUSA that are outstanding and unresponded to. . . .
I would imagine that there are e-mails, that there are
internal documents within the offices in Kentucky
where the denomination headquarters are that relate
to these issues.
Respondents’ counsel explained that appellants
had the Book of Order, Griffith’s declaration and its
exhibits, and all the minutes for Seattle Presbytery
from 1979 among other documents. Respondents’
counsel stated further:
We’ve also given them citations to numerous
court decisions on this topic. Last, but not least,
37

Kozol, 192 Wn. App. at 6.

38

Kozol, 192 Wn. App. at 6.

20a
we have produced [appellants’] own communications with the congregation last November, in
which they say that the congregation should
vote to disaffiliate because the PCUSA is hierarchical and has limited their freedom of action.
Counsel asserted that additional discovery would be
only cumulative.
The trial court denied appellants’ request for a
continuance:
The record shows that [appellants] have had
sufficient time and notice to prepare their opposition to [respondents’] motion for partial summary judgment. [Appellants] have had ample
opportunity to assemble declarations from experts, and they have done so. Upon inquiry
from the court as to what specific evidence the
[appellants] expected to discover, [appellants’]
counsel made only vague references to internal
correspondence he suspected existed. Even so,
the anticipated evidence would not add anything to the [appellants’] already thorough response to the [respondents’] motion for summary judgment. Evidence of the sort alluded to
by [appellants’] counsel would be cumulative at
best.
[Appellants] fail to show that additional discovery would support further their assertion
that there exists a genuine issue of material fact
as to whether the Presbyterian Church (U.S.A.)
is hierarchical.
The record shows that appellants had already received extensive documentation related to whether the
church is hierarchical, and appellants’ counsel asked
for a continuance to discover documents that he

21a
merely expected existed. As discussed above, the trial
court properly decided that the Presbyterian Church
is hierarchical as a matter of law. The trial court acted
within its discretion to deny appellants’ continuance
request.
The trial court did not err in following Rohrbaugh
and deferring to the AC’s determination that any interest FPCS had in church property was held in trust
for the benefit of PCUSA.
Employment Contract Dispute in
Presbytery II
The Schulzes claim that even if this court declines
to reconsider Rohrbaugh, it should still decide that the
trial court erred in applying compulsory deference rather than neutral principles to the AC’s determinations about their severance agreements because courts
in other jurisdictions and “[m]ost Washington court[]
of appeals decisions” recognize that compulsory deference does not apply to a civil contract dispute involving
religious institutions. We disagree.
In Org. for Preserving the Constitution of Zion Lutheran Church v. Mason,39 the organization, comprised
of members of the Zion Lutheran congregation, sought
to enjoin the installation of Joseph Mason as pastor
based on a voting provision in Zion Lutheran’s constitution. The church asserted that because no property
interest was involved, the civil courts could not interfere.40 The trial court dismissed the organization’s
complaint, finding that it lacked authority to interpret
the provision at issue in Zion Lutheran’s
39
40

49 Wn. App. 441, 442-44, 743 P.2d 848 (1987).
Mason, 49 Wn. App. at 445-46.

22a
constitution.41 This court reversed and remanded for
trial on two grounds: (1) there remained a question of
fact about whether the church was hierarchical or congregational and (2) the church did not have a binding
dispute resolution process.42 We rejected the argument that the dispute involved ecclesiastical questions
that the trial court could not decide.43 We explained
that based on Rohrbaugh,
when a property dispute is involved, [the issue
in this jurisdiction] is whether the church in
question is hierarchically or congregationally
organized. We see no logical reason why a different approach should be used to determine
when the civil courts have jurisdiction over religious disputes not involving property.
Therefore, the jurisdictional threshold question remains whether Zion Lutheran Church is
an independent congregation or a member of a
hierarchically organized church.[44]
And we stated that because the church did not have
a binding dispute resolution process, “If the civil courts
denied jurisdiction, the Organization would be without
a remedy.”45 Mason thus extended Rohrbaugh’s compulsory deference approach to civil disputes within a
hierarchically organized church that has a binding dispute resolution process.

Mason, 49 Wn. App. at 442.
Mason, 49 Wn. App. at 447-50.
43 Mason, 49 Wn. App. at 449.
44 Mason, 49 Wn. App. at 447.
41
42

45

Mason, 49 Wn. App. at 449.

23a
Consistent with this holding is our Supreme
Court’s plurality opinion in Erdman v. Chapel Hill
Presbyterian Church.46 There, an employee of a local
denomination of the Presbyterian Church brought a
number of claims against the church and its ministers,
including negligent retention and negligent supervision.47 She submitted her claims to the church’s decision-making ecclesiastical tribunal, which concluded
her “allegations could not be reasonably proved.”48 In
affirming the trial court’s dismissal of Erdman’s
claims, the plurality opinion held that because Erdman submitted her claims to the church’s highest decision-making tribunal and the church is “undisputedly a hierarchically structured church,” a civil court
must defer to the church’s ecclesiastical decision.”49
The court noted that in Rohrbaugh, it “recognized the
principle that deference is to be afforded such decisions of an ecclesiastical tribunal of a hierarchical
church.”50 And it relied on the rule from the United
States Supreme Court’s decision in Watson, stating:
[T]he rule that should “govern the civil courts”
is that “whenever the questions of discipline, or
of faith, or ecclesiastical rule, custom, or law
have been decided by the highest of these
church judicatories to which the matter has
been carried, the legal tribunals must accept

46

175 Wn.2d 659, 286 P.3d 357 (2012).

47

Erdman, 175 Wn.2d at 660.

48

Erdman, 175 Wn.2d at 664.

49

Erdman, 175 Wn.2d at 681-82, 684.

50

Erdman, 175 Wn.2d at 682.

24a
such decisions as final, and as binding on them,
in their application to the case before them.”51
Last, in Elvig v. Ackles,52 this court reiterated the
rule articulated in Mason. The Schulzes mistakenly
claim that Elvig shows a court should apply neutral
principles to a civil contract dispute. There, Monica
Elvig, an associate minister at Calvin Presbyterian
Church, told the church that Reverend Will Ackles had
sexually harassed her.53 Church authorities did not
discipline Ackles because the church’s investigating
committee and judicial commission decided that insufficient evidence existed to file a charge.54 They also
precluded Elvig from seeking other work, claiming
that the Book of Order prohibited a minister from
transferring while charges were pending.55 We affirmed the rule we articulated in Mason, stating, “[I]f
the church accused of wrongdoing is a member of a hierarchically-organized church that has ecclesiastical
judicial tribunals, civil courts must defer to the highest
church tribunal’s resolution of the matter, despite the
fact that the dispute could be resolved by a civil
court.”56 In affirming the trial court’s dismissal of
Elvig’s claims against the church, the presbytery, and
Ackles, this court reasoned,

Erdman, 175 Wn.2d at 679-80 (emphasis added)
(quoting Watson, 80 U.S. at 727).
51

52

123 Wn. App. 491, 98 P.3d 524 (2004).

53

Elvig, 123 Wn. App. at 493.

54

Elvig, 123 Wn. App. at 498-99.

55

Elvig, 123 Wn. App. at 498-99.

56

Elvig, 123 Wn. App. at 496.

25a
Elvig’s negligent supervision and aiding and
abetting claims would require a secular court to
examine decisions made by ecclesiastical judicial bodies, and her retaliation claims would require a court to question and interpret the
transfer rule in the church’s Book of Order. We
can do neither without effectively undermining
the church’s inherent autonomy.
….
Our ruling is a narrow one based on the
court’s inability to question or interpret the
Presbyterian Church’s self-governance.57
The Schulzes ask this court to distinguish Erdman
and Elvig from this case because both Erdman and
Elvig filed complaints with their respective churches.
The Schulzes claim that by contrast, because they did
not submit their severance claims to any ecclesiastical
body for resolution but, rather, Presbytery unilaterally
convened the AC to decide the validity of their severance agreements, a civil court need not defer to the
AC’s decision. We do not find this factual distinction
persuasive. It has no bearing on the rule that a civil
court must defer to the decision of the highest tribunal
of a church that is hierarchically structured.
Consistent with Mason, Erdman, and Elvig, we
conclude that because the Presbyterian Church is hierarchical and has an internal dispute resolution process, the trial court properly deferred to the AC’s determination that the Schulzes’ severance agreements
were invalid.

57

Elvig, 123 Wn. App. at 496.

26a
CONCLUSION
We affirm. The trial court properly deferred to the
AC’s determinations resolving the property and severance agreement disputes.

27a
APPENDIX B
______________________________________________
IN THE SUPERIOR COURT OF THE STATE OF
WASHINGTON IN AND OR FOR
THE COUNTY OF KING
______________________________________________
THE PRESBYTERY OF
SEATTLE, a Washington nonprofit corporation; THE FIRST PRESBYTERIAN CHURCH
OF SEATTLE, a Washington nonprofit corporation; ROBERT WALLACE, President of The
First Presbyterian
Church of Seattle, a
Washington nonprofit
corporation; and WILLIAM LONGBRAKE, on
behalf of himself and
similarly situated members of First Presbyterian Church of Seattle,
Plaintiffs,
v.
JEFF SCHULZ and ELLEN SCHULZ, as individuals and as the marital community comprised thereof; and LIZ
CEDERGREEN, DAVID

No. 16-2-03515-9 SEA

28a
MARTIN, LINDSEY
McDOWELL, GEORGE
NORRIS, NATHAN
ORONA, and
KATHRYN OSTROM,
as trustees of The First
Presbyterian Church of
Seattle, a Washington
nonprofit corporation,
Defendants.
JEFF SCHULZ and ELLEN SCHULZ, as individuals and as the marital community comprised thereof; and LIZ
CEDERGREEN, DAVID
MARTIN, LINDSEY
McDOWELL, GEORGE
NORRIS, NATHAN
ORONA, and
KATHRYN OSTROM,
as trustees of The First
Presbyterian Church of
Seattle, a Washington
nonprofit corporation,
Third-Party
Plaintiffs and
Counterclaimants,
v.
THE PRESBYTERY OF
SEATTLE, a Washington nonprofit corporation; SCOTT

29a
LUMSDEN, Executive
Presbyter of the Presbytery of Seattle, an individual; and THE FIRST
PRESBYTERIAN
CHURCH OF SEATTLE, a Washington nonprofit corporation, as
recognized by the State
of Washington under
Washington’s Nonprofit
Corporations Act, by and
through the corporation’s duly elected Board
of Trustees,
Counterclaim
Defendant and
Third-Party Defendants,
THE FIRST PRESBYTERIAN CHURCH OF
SEATTLE, a Washington nonprofit corporation, as recognized by
the State of Washington
under Washington’s
Nonprofit Corporations
Act, by and through the
corporation’s duly
elected Board of Trustees,

30a
Cross-Claimant
and Third-Party
Plaintiff,
v.
THE PRESBYTERY OF
SEATTLE, a Washington nonprofit corporation; ROBERT WALLACE, an individual;
WILLIAM LONGBRAKE, an individual;
and PRESBYTERIAN
CHURCH (U.S.A.), A
Corporation, a Pennsylvania nonprofit corporation,
Cross-Claim Defendants and
Third-Party Defendants.
[FILED May 27, 2016]
Before: The Honorable Mary E. Roberts
______________________________________________
ORDER GRANTING PLAINTIFFS’ MOTION
FOR PARTIAL SUMMARY JUDGMENT;
DECLARATORY JUDGMENT
________________________
This matter came before the Court on Plaintiffs’
Motion for Partial Summary Judgment (the “motion”).
Plaintiffs requested summary judgment on the first
cause of action in the complaint that they filed on February 17, 2016, which seeks a declaratory judgment.

31a
The Court has considered the motion and the following materials submitted with the motion:
Declaration of Heidi Husted Armstrong in Support
of Plaintiffs’ Motion for Partial Summary Judgment;
Declaration of Shelley M. Dahl in Support of Plaintiffs’ Motion for Partial Summary Judgment, with exhibits;
Declaration of Doug Kelly in Support of Plaintiffs’
Motion for Partial Summary Judgment, with its exhibit;
Declaration of William A. Longbrake in Support of
Plaintiffs’ Motion for Partial Summary Judgment,
with exhibits;
Declaration of Scott Lumsden in Support of Plaintiffs’ Motion for Partial Summary Judgment, with exhibits;
Second Declaration of Scott Lumsden in Support of
Plaintiffs’ Motion for Partial Summary Judgment,
with exhibits;
Declaration of Robert B. Mitchell (filed with Plaintiffs’ Motion for Partial Summary Judgment); and
Declaration of Peter A. Talevich in Support of
Plaintiffs’ Motion for Partial Summary Judgment,
with exhibits.
The Court has also considered defendants’ opposition to the motion and the following materials submitted with defendants’ opposition:
Declaration of Richard B. Head (filed with Defendants’ Opposition to Plaintiffs’ Motion for Partial Summary Judgment), with exhibits;

32a
Declaration of Daniel Kittle in Support of Opposition to Plaintiffs’ Motion for Partial Summary Judgment, with exhibits;
Declaration of David Martin in Support of Opposition to Plaintiffs’ Motion for Partial Summary Judgment, with exhibits; and
Declaration of Parker T. Williamson in Support of
Opposition to Plaintiffs’ Motion for Partial Summary
Judgment, with exhibits.
The Court has considered as well plaintiffs’ reply in
support of the motion and the following materials submitted with plaintiffs’ reply:
Second Declaration of William A. Longbrake in
Support of Plaintiffs’ Motion for Partial Summary
Judgment, with exhibits;
Third Declaration of Scott Lumsden in Support of
Plaintiffs’ Motion for Partial Summary Judgment,
with exhibits; and
Second Declaration of Peter A. Talevich in Support
of Plaintiffs’ Motion for Partial Summary Judgment.
The Court has considered the following additional
materials:
First Presbyterian Church of Seattle’s Motion for
Preliminary Injunction to Preserve the Status Quo;
Declaration of Richard Head in Support of Motion
for Preliminary Injunction, with its exhibit;
Declaration of Bruce Leaverton in Support of Motion for Preliminary Injunction, with exhibits;
Declaration of Lloyd Lunceford in Support of Motion for Preliminary Injunction; Declaration of David

33a
Martin in Support of Motion for Preliminary Injunction, with exhibits;
Declaration of Parker Williamson in Support of Motion for Preliminary Injunction, with its exhibit;
Plaintiffs’ Opposition to Motion for Preliminary Injunction;
Declaration of Heidi Husted Armstrong in Opposition to Motion for Preliminary Injunction;
Declaration of Laurie Griffith, with exhibits;
Declaration of Neal Lampi in Opposition to Motion
for Preliminary Injunction, with exhibits;
Declaration of Scott Lumsden in Opposition to Motion for Preliminary Injunction, with its exhibit;
Declaration of Robert B. Mitchell in Opposition to
Motion for Preliminary Injunction, with exhibits;
Defendants’ Reply in Support of Motion for Preliminary Injunction to Preserve the Status Quo;
Supplemental Declaration of Bruce Leaverton in
Support of Motion for Preliminary Injunction, with its
exhibit;
Defendants’ CR 56(f) Motion, for Continuance;
Declaration of Daniel Kittle in Support of Defendants’ CR 56(f) Motion for Continuance, with exhibits;
Plaintiffs’ Opposition to Defendants’ Motion for
Continuance;
Declaration of Robert B. Mitchell in Opposition to
Defendants’ Motion for Continuance, with exhibits;
and
The Court held oral argument in open court on May
27, 2016.

34a
Based upon the foregoing, the Court GRANTS the
motion. There exists no genuine issue of fact that is
material to the first cause of action, which seeks a declaratory judgment, and plaintiffs are entitled to judgment as a matter of law. The Court therefore enters
the following declaratory judgment:
1. The Presbyterian Church (U.S.A.) is a hierarchical church in which the determinations of Seattle
Presbytery, through its Administrative Commission,
are conclusive and binding on the session, trustees,
and congregation of First Presbyterian Church of Seattle (FPCS).
2. The findings and rulings of the Administrative
Commission adopted on February 16, 2016, are conclusive and binding in all determinations of church policy
and governance related to FPCS.
3. The amendments to the bylaws that the defendants purported to adopt in October 2015 and to have
the FPCS congregation ratify in November 2015, as
well as the amendments to the articles of incorporation
that the FPCS congregation purported to adopt in November 2015, are void and without effect. FPCS is governed by the Restated Articles of Incorporation of the
First Presbyterian Church of Seattle dated June 18,
1985, and the Bylaws of the First Presbyterian Church
of Seattle dated May 8, 2005.
4. Any interest that FPCS has in church property
is held in trust for the benefit of the Presbyterian
Church (U.S.A.).
5. The current governing body of FPCS is the Administrative Commission for First Presbyterian
Church of Seattle. This Administrative Commission,
appointed by Seattle Presbytery in November 2015,
assumed original jurisdiction on February 16, 2016,

35a
and it now acts as the session of FPCS. The ruling
elders and directors/trustees of FPCS are Steve Aeschbacher, Heidi Husted Armstrong, Shelley Dahl, J.P.
Kang, William Longbrake, Jonathan Siehl, Kathy
Smith, and Robert Wallace. The duly elected officers
of FPCS are Robert Wallace (President), Shelley Dahl
(Vice President), and William Longbrake (Secretary/Treasurer).
SO ORDERED this 27th day of May, 2016.
/s/ Mary E. Roberts
Mary E. Roberts
KING COUNTY SUPERIOR COURT JUDGE

36a
APPENDIX C
______________________________________________
IN THE SUPERIOR COURT OF THE STATE OF
WASHINGTON IN AND OR FOR
THE COUNTY OF KING
______________________________________________
THE PRESBYTERY OF No. 16-2-03515-9 SEA
SEATTLE, a Washington nonprofit corporation; THE FIRST PRESBYTERIAN CHURCH
OF SEATTLE, a Washington nonprofit corporation; ROBERT WALLACE, President of The
First
Presbyterian
Church of Seattle, a
Washington
nonprofit
corporation; and WILLIAM LONGBRAKE, on
behalf of himself and
similarly situated members of First Presbyterian Church of Seattle,
Plaintiffs,
v.
JEFF SCHULZ and ELLEN SCHULZ, as individuals and as the marital community comprised thereof; and LIZ
CEDERGREEN, DAVID

37a
MARTIN, LINDSEY
McDOWELL, GEORGE
NORRIS, NATHAN
ORONA, and
KATHRYN OSTROM,
as trustees of The First
Presbyterian Church of
Seattle, a Washington
nonprofit corporation,
Defendants.
JEFF SCHULZ and ELLEN SCHULZ, as individuals and as the marital community comprised thereof; and LIZ
CEDERGREEN, DAVID
MARTIN,
LINDSEY
McDOWELL, GEORGE
NORRIS,
NATHAN
ORONA, and KATHRYN
OSTROM, as trustees of
The First Presbyterian
Church of Seattle, a
Washington
nonprofit
corporation,
Third-Party
Plaintiffs and
Counterclaimants,
v.
THE PRESBYTERY OF
SEATTLE, a Washington nonprofit corporation; SCOTT

38a
LUMSDEN, Executive
Presbyter of the Presbytery of Seattle, an individual; and THE FIRST
PRESBYTERIAN
CHURCH OF SEATTLE, a Washington nonprofit corporation, as
recognized by the State
of Washington under
Washington’s Nonprofit
Corporations Act, by and
through the corporation’s duly elected Board
of Trustees,
Counterclaim
Defendant and
Third-Party Defendants.
THE FIRST PRESBYTERIAN CHURCH OF
SEATTLE, a Washington nonprofit corporation, as recognized by the
State of Washington under Washington’s Nonprofit Corporations Act,
by and through the corporation’s duly elected
Board of Trustees,
Cross-Claimant
and Third-Party
Plaintiff,

39a
v.
THE PRESBYTERY OF
SEATTLE, a Washington nonprofit corporation; ROBERT WALLACE, an individual;
WILLIAM LONGBRAKE, an individual;
and PRESBYTERIAN
CHURCH (U.S.A.), A
Corporation, a Pennsylvania nonprofit corporation,
Cross-Claim Defendants and
Third-Party Defendants.
[FILED May 27, 2016]
Before: The Honorable Mary E. Roberts
______________________________________________
FINDINGS OF FACT, CONCLUSIONS OF
LAW, AND ORDER DENYING MOTION FOR
PRELIMINARY INJUNCTION
______________________________________________
This matter came before the Court on “First Presbyterian Church of Seattle’s Motion for Preliminary
Injunction to Preserve the Status Quo,” Dkt. No. 50
(the “motion”).1 The Court has considered the motion
Because the leadership of First Presbyterian Church
of Seattle is disputed, the Court refers to the movant as “defendants.”
1

40a
and the following materials submitted with the motion:
Declaration of Richard Head in Support of Motion
for Preliminary Injunction, with its exhibit;
Declaration of Bruce Leaverton in Support of Motion for Preliminary Injunction, with exhibits;
Declaration of Lloyd Lunceford in Support of Motion for Preliminary Injunction; Declaration of David
Martin in Support of Motion for Preliminary Injunction, with exhibits;
Declaration of Parker Williamson in Support of Motion for Preliminary Injunction, with its exhibit.
The Court has also considered Plaintiffs’ Opposition to Motion for Preliminary Injunction and the following materials submitted with the opposition:
Declaration of Heidi Husted Armstrong in Opposition to Motion for Preliminary Injunction;
Declaration of Laurie Griffith, with its exhibit;
Declaration of Neal Lampi in Opposition to Motion
for Preliminary Injunction, with exhibits;
Declaration of Scott Lumsden in Opposition to Motion for Preliminary Injunction, with its exhibit;
Declaration of Robert B. Mitchell in Opposition to
Motion for Preliminary Injunction, with exhibits.
The Court has considered as well Defendants’ Reply in Support of Motion for Preliminary Injunction to
Preserve the Status Quo and the following materials
submitted with the reply:
Supplemental Declaration of Bruce Leaverton in
Support of Motion for Preliminary Injunction, with its
exhibit.

41a
The Court has considered the following additional
materials:
Plaintiffs’ Motion for Partial Summary Judgment;
Declaration of Heidi Husted Armstrong in Support
of Plaintiffs’ Motion for Partial Summary Judgment;
Declaration of Shelley M. Dahl in Support of Plaintiffs’ Motion for Partial Summary Judgment, with exhibits;
Declaration of Doug Kelly in Support of Plaintiffs’
Motion for Partial Summary Judgment, with its exhibit;
Declaration of William A. Longbrake in Support of
Plaintiffs’ Motion for Partial Summary Judgment,
with exhibits;
Declaration of Scott Lumsden in Support of Plaintiffs’ Motion for Partial Summary Judgment, with exhibits;
Declaration of Robert B. Mitchell (filed with Plaintiffs’ Motion for Partial Summary Judgment);
Declaration of Peter A. Talevich in Support of
Plaintiffs’ Motion for Partial Summary Judgment,
with exhibits;
Second Declaration of Scott Lumsden in Support of
Plaintiffs’ Motion for Partial Summary Judgment,
with exhibits;
Defendants’ Opposition to Motion for Partial Summary Judgment;
Declaration of Richard B. Head (filed with Defendants’ Opposition to Plaintiffs’ Motion for Partial Summary Judgment), with exhibits;

42a
Declaration of Daniel Kittle in Support of Opposition to Plaintiffs’ Motion for Partial Summary Judgment, with exhibits;
Declaration of David Martin in Support of Opposition to Plaintiffs’ Motion for Partial Summary Judgment, with exhibits;
Declaration of Parker T. Williamson in Support of
Opposition to Motion for Partial Summary Judgment,
with exhibits;
Plaintiffs’ Reply in Support of Motion for Summary
Judgment;
Second Declaration of William A. Longbrake in
Support of Plaintiffs’ Motion for Partial Summary
Judgment, with exhibits;
Third Declaration of Scott Lumsden in Support of
Motion for Partial Summary Judgment, with exhibits;
[Second

Declaration of Peter A. Talevich in Support
of Motion for Partial Summary Judgment;
Defendants’ CR 56(f) Motion for Continuance;
Declaration of Daniel Kittle in Support of Defendants’ CR 56(f) Motion for Continuance, with exhibits;
Plaintiffs’ Opposition to Defendants’ Motion for
Continuance;
Declaration of Robert B. Mitchell in Opposition to
Defendants’ Motion for Continuance, with exhibits;
and
The Court heard argument on the motion in open
court on May 27, 2016.
Having considered the foregoing, the Court hereby
finds, concludes, and orders as follows:

43a
FINDINGS OF FACT
1. The Presbyterian Church (U.S.A.) (the
“Church”) is a hierarchical religious denomination.
2. Under the Form of Government of the Church,
congregations within the Church are governed by a hierarchy of councils including, in ascending order, the
session (pastors and elders of the local congregation),
the presbytery (composed of all pastors and at least
one elder from each of the congregations within a district), the synod (composed of representative pastors
and elders from the presbyteries within a geographical
region), and the general assembly (composed of delegations of pastors and elders from the presbyteries).
The presbytery with jurisdiction over First Presbyterian Church of Seattle (“FPCS”) is plaintiff Presbytery
of Seattle (“Seattle Presbytery”).
3. The Church, its congregations, and its councils
are all governed by the Constitution of the Presbyterian Church (U.S.A.) (the “Church Constitution”). Part
II of the Church Constitution, known as the Book of
Order, sets forth the Form of Government of the
Church.
4. According to the Church Constitution, “[t]he
provisions of this Constitution prescribing the manner
in which decisions are made, reviewed, and corrected
within this [C]hurch are applicable to all matters pertaining to property.”
5. Under the Church Constitution, “all property
held by a congregation, whether legal title is lodged in
a corporation, a trustee or trustees, or an unincorporated association . . . is held in trust nevertheless for
the use and benefit of the Presbyterian Church
(U.S.A.).” When property of a congregation of the
Church “ceases to be used by that congregation as a

44a
congregation of the Presbyterian Church (U.S.A.) in
accordance with the Constitution, such property shall
be held, used, applied, transferred, or sold as provided
by the Presbytery.”
6. If permitted by civil law, the Church Constitution requires congregations to “cause a corporation to
be formed and maintained.” The powers of the corporation and trustees are “subject to the authority of the
session and under the provisions of the [Church Constitution],” and “[t]he powers and duties of the trustees
shall not infringe upon the powers and duties of the
session . . .”.
7. FPCS incorporated under civil law in 1874. The
original articles of incorporation state that FPCS was
established “to promote the worship of Almighty God
and the belief in and extension of the Christian Religion, under the form of government and discipline of
the ‘Presbyterian Church in the United States of
America.’”
8. The restated articles of incorporation, adopted
in 1985, provide that the “objects and purposes” of
FPCS are “to promote the worship of Almighty God
and the belief in the extension of the Christian Religion, under the Form of Government and discipline of
‘The Presbyterian Church (U.S.A.).’”
9. On October 27, 2015, the session of FPCS purported to repeal the bylaws then in effect (the “2005
Bylaws”) and establish separate corporate and congregational bylaws. The session then installed its members as trustees of the corporation. According to FPCS
elder David Martin, “[t]he FPCS Board is governed by
the Corporation’s Articles of Incorporation and Corporate Bylaws, as well as the provisions of the Washington Nonprofit Corporation Act, and is not subject to the

45a
authority of the Presbytery of Seattle (‘Presbytery’) or
the PCUSA Book of Order.”
10. Mr. Martin notified Seattle Presbytery that the
assets of FPCS were “owned by and under the control
of the Corporation, and are therefore not subject to
Presbytery authority.” He also stated that the “Corporation” had transferred approximately $420,000 into
the trust account of Lane Powell P.C.
11. The FPCS session and the FPCS board, purporting to be different entities, provided notice to the FPCS
members of corporation and congregational meetings
to occur on November 15, 2016. Notice of each meeting
was mailed to the members of FPCS, but no notice was
read at the November 8, 2016 joint service and no notice was printed in the FPCS church bulletin for that
service.
12. On November 15, 2016, the members of the
FPCS congregation voted to disaffiliate from the
Church, and the members of the FPCS corporation
voted to ratify the October 27 bylaw amendments and
amend the restated articles of incorporation to remove
any references to the Church. Voting occurred in person and by proxy. The Book of Order does not permit
“disaffiliation” by congregational vote, nor does it permit voting by proxy. Seattle Presbytery’s Communal
Discernment and Gracious Separation Policy constitutes the only policy under which a congregation
within Seattle Presbytery may be dismissed or otherwise separated from the Church.
13. On November 17, 2016, following the Book of
Order, Seattle Presbytery appointed an Administrative Commission for First Presbyterian Church of Seattle (the “Administrative Commission”) to work on
the presbytery’s behalf with purposes and authority as

46a
described in the presbytery’s resolution and as repeated on pages 2-3 of the Administrative Commission’s report.
14. Effective December 16, 2015, Jeff and Ellen
Schulz, the co-pastors at FPCS, renounced the jurisdiction of the Presbyterian Church (U.S.A.).
15. On February 16, 2016, the Administrative Commission adopted ten resolutions and issued its report,
together with a 222-page appendix.
16. The Administrative Commission assumed original jurisdiction, thereby becoming the session of
FPCS with responsibility for the governance, property,
and spiritual well-being of the church.
17. As authorized by the Book of Order, the Administrative Commission determined that there is a
schism in FPCS and that the members who opposed
the actions of the former FPCS elders constitute the
true church. The Administrative. Commission noted
that Jeff and Ellen Schulz, having renounced the jurisdiction of the Presbyterian Church (U.S.A.), had
ceased to function at that point as pastors of FPCS.
The Administrative Commission appointed a temporary pastor for the FPCS congregation as well as a person having authority to oversee the property and financial affairs of FPCS. The Administrative Commission also determined that its members, as the current
ruling elders on session, were now the trustees of the
FPCS corporation.
18. The Administrative Commission determined
that all property of FPCS—including real property,
personal property, and intangible property—is subject
to the direction and control of the Administrative Commission’s original jurisdiction and must be held, used,

47a
applied, transferred, or sold as the Administrative
Commission may provide or direct.
19. The Administrative Commission directed that
the funds transferred to the Lane Powell trust account
be returned to the church immediately, and all funds
held in the name of the FPCS corporation be turned
over to the Administrative Commission. The Administrative Commission also directed an accounting of all
financial transactions involving FPCS and the turning
over of all books and records by February 21, 2016.
20. After being apprised of the Administrative Commission’s actions, defendants’ counsel stated that “the
decisions of the Administrative Commission have no
authority over [FPCS] nor do the AC, the Presbytery
or PCUSA hold any valid claims to, or interests in, [its]
records or property.” This litigation followed.
21. Since the purported secession of FPCS from the
Church, the defendants have continued to conduct
worship service in the FPCS chapel. The FPCS congregants who opposed defendants’ actions, on the
other hand, have worshipped at various locations.
22. Seattle Presbytery and its agents have not interfered or attempted to interfere with any bank account held in the name of FPCS. Instead, to support
its ministry to the FPCS congregants who opposed defendants’ actions, Seattle Presbytery opened a new
banking account at Banner Bank in the name of Seattle Presbytery AC for the First Presbyterian Church of
Seattle.
23. Seattle Presbytery established a new website,
rather than interfere with the website now controlled
by defendants, to inform the FPCS congregants who opposed defendants’ actions of the congregation’s activities and changing locations for worship.

48a
24. Seattle Presbytery and its agents have not contacted Diamond Parking, Seattle Classical Christian
School, Town Hall, or any other entities that have contractual obligations to FPCS. Instead, after defendants rejected a proposed joint communication, Seattle
Presbytery decided to await a prompt resolution of this
case rather than draw these entities into the parties’
dispute. Seattle Presbytery has also not interfered
with any of the redevelopment projects associated with
FPCS premises.
25. Lane Powell P.C. has voluntarily agreed not to
access any of the funds in its trust account that were
placed there by defendants until the Court determines
who is entitled to those funds.
26. Seattle Presbytery offered to make the client
files of FPCS in the hands of Riddell Williams available to both the plaintiffs and defendants in this matter,
while the right to those files remains disputed, but the
defendants rejected this compromise.
CONCLUSIONS OF LAW
1. To obtain a preliminary injunction, the movant
must establish (1) a clear legal, or equitable right, (2)
a well-grounded fear of immediate invasion of that
right, and (3) that the act complained of will result in
actual and substantial injury. E.g., Huff v. Wyman,
184 Wn.2d 643, 651, 361 P.3d 727 (2015).
2. Defendants have not met their burden of showing a clear legal or equitable right for the following reasons:
a. Under Presbytery of Seattle, Inc. v.
Rohrbaugh, 79 Wn.2d 367, 485 P.2d 615 (1971),
cert. denied, 405 U.S. 996, reh. denied, 406 U.S.
939 (1972), the determinations of the

49a
Administrative Commission of Seattle Presbytery are entitled to conclusive deference. As a
result, the Administrative Commission’s assumption of original jurisdiction over the affairs
of FPCS cannot be disturbed.
b. Washington courts have rejected a “neutral principles of law” approach to resolving ecclesiastical disputes related to church property,
but even under this analysis, defendants would
not be entitled to relief. Defendants’ purported
attempts to amend the FPCS 2005 Bylaws and
the Restated Articles of Incorporation were ineffective as a matter of corporate law.
c. Moreover, even if a neutral principles of
law approach applied, the Book of Order provides that all property held by or for congregations, including FPCS, is held in trust for the
Church. FPCS’s Restated Articles of Incorporation and 2005 Bylaws incorporate this provision; FPCS’s financial statements expressly recognized it before 2015. Because defendants
have ceased to use such property as property of
the Church, Seattle Presbytery is entitled to the
use and possession of that property.
d. With respect to defendants’ claim of
trademark infringement, defendants have not
shown ownership, distinctiveness, or likely confusion. Their requested injunction would impermissibly limit the plaintiffs’ Free Exercise
rights.
3. Defendants have not met their burden of showing a well-grounded fear of immediate invasion of any
right. Instead, the evidence shows that plaintiffs have
not interfered with defendants’ purported governance

50a
of FPCS but have, instead, attempted to resolve the
issue promptly in court before taking any actions related to church property.
4. Defendants have not met their burden of showing that the acts complained of will result in actual and
substantial injury.
The Motion is DENIED.
IT IS SO ORDERED this 27th day of May, 2016.
/s/ Mary E. Roberts
Mary E. Roberts
KING COUNTY SUPERIOR COURT JUDGE

51a
APPENDIX D
IN THE COURT OF APPEALS OF
THE STATE OF WASHINGTON
______________________________________________
THE PRESBYTERY OF SEATTLE, a Washington
nonprofit corporation; THE FIRST PRESBYTERIAN
CHURCH OF SEATTLE, a Washington nonprofit
corporation; ROBERT WALLACE, President of the
First Presbyterian Church of Seattle, a Washington
nonprofit corporation; and WILLIAM LONGBRAKE,
on behalf of himself and similarly situated members
of First Presbyterian Church of Seattle,
Respondents,
v.
JEFF SCHULZ, ELLEN SCHULZ, LIZ
CEDERGREEN, DAVID MARTIN, LINDSEY
McDOWELL, GEORGE NORRIS, NATHAN ORONA,
and KATHRYN OSTROM, as trustees of The First
Presbyterian Church of Seattle, a Washington
nonprofit corporation,
Appellants.
______________________________________________
THE PRESBYTERY OF SEATTLE, a Washington
nonprofit corporation; and
THE FIRST PRESBYTERIAN CHURCH OF
SEATTLE, a Washington nonprofit corporation,
Respondents,
v.
JEFF SCHULZ and ELLEN SCHULZ, as individuals
and as the marital community thereof,

52a
Appellants.
______________________________________________
No. 78399-8-1
Decided and Filed: November 27, 2019
Before: Leach, J.
Justice.
______________________________________________
ORDER DENYING MOTION FOR
RECONSIDERATION
______________________________________________
The appellants, having filed a motion for reconsideration herein, and the hearing panel having determined that the motion should be denied; now, therefore, it is hereby:
ORDERED that the motion for reconsideration be,
and the same is, hereby denied.
FOR THE COURT:
/s/ J. Leach
Judge

53a
APPENDIX E
THE SUPREME COURT OF WASHINGTON
______________________________________________
THE PRESBYTERY OF
SEATTLE, et al.,

No. 97996-1

Respondents,
v.
JEFF and ELLEN
SCHULZ, et al.,
Petitioners.

Court of Appeals
No. 78399-8-1

______________________________________________
[FILED April 1, 2020]
Before: STEPHENS, MADSEN, JOHNSON, GORDON McCLOUD, and MONTOYA-LEWIS
Justices.
______________________________________________
ORDER
______________________________________________
Department II of the Court, composed of Chief Justice Stephens and Justices Madsen, Wiggins, Gordon
McCloud, and Montoya-Lewis (Justice Wiggins did not
participate, Justice Johnson sat for Justice Wiggins),
considered at its March 31, 2020, Motion Calendar
whether review should be granted pursuant to RAP
13.4(b) and unanimously agreed that the following order be entered.

54a
IT IS SO ORDERED:
That the petition for review is denied.
DATED at Olympia, Washington, this 1st day of
April, 2020.
For the Court
/s/ Debra L. Stephens
CHIEF JUSTICE

55a
APPENDIX F
Table of state court decisions concerning
church property
States adopting neutral principles
Alabama - Haney’s Chapel United Methodist Church
v. United Methodist Church, 716 So.2d 1156
(Ala. 1998)
Alaska - St. Paul Church, Inc. v. Board of Trustees of
the Alaska Missionary Conference of the United
Methodist Church, Inc., 145 P.3d 541 (Ak. 2006)
Arizona - Ad Hoc Comm. of Parishioners of Our Lady
of Sun Catholic Church, Inc. v. Reiss, 224 P.3d
1002 (Ariz. App. 2010)
Arkansas - Ark. Presbytery of Cumberland Presbyterian Church v. Hudson, 40 S.W.3d 301 (Ark.
2001)
Colorado - Bishop and Diocese of Colorado v. Mote,
716 P.2d 85, 102 (Colo. 1986)
Delaware - Trustees of the Peninsula-Delaware Annual Conference of the United Methodist
Church, Inc. v. East Lake Methodist Episcopal
Church, Inc., 731 A.2d 798 (Del. 1999)
Hawaii - Redemption Bible College v. Intern’l Pentecostal Holiness Church, 309 P.3d 969 (Table),
2013 WL 3863104 (Haw. App. July 23, 2013)
Illinois - Hines v. Turley, 615 N.E.2d 1251 (Ill. App.
1993).
Indiana - Presbytery of Ohio Valley, Inc. v. OPC, Inc.,
973 N.E.2d 1099 (Ind. 2012)

56a
Louisiana - Fluker Community Church v. Hitchens,
419 So.2d 445 (La. 1982)
Maine - Graffam v. Wray, 437 A.2d 627 (Me. 1981)
Maryland - Mt. Olive African Methodist Episcopal
Church of Fruitland, Inc. v. Board of Incorporators of African Methodist Episcopal Church Inc.,
703 A.2d 194 (Md. 1997)
Massachusetts - Fortin v. Roman Catholic Bishop of
Worcester, 625 N.E.2d 1352 (Mass. 1994)
Minnesota - Piletich v. Deretich, 328 N.W.2d 696
(Minn. 1982)
Mississippi - Church of God Pentecostal v. Freewill
Pentecostal Church of God, 716 So.2d 200 (Miss.
1998)
Missouri - Presbytery of Elijah Parish Lovejoy v.
Jaeggi, 682 S.W.2d 465 (Mo. 1984)
Montana - New Hope Lutheran Ministry v. Faith Lutheran Church of Great Falls, Inc., 328 P.3d 586
(Mont. 2014)
Nebraska - Aldrich on behalf of Bethel Lutheran
Church v. Nelson on behalf of Bethel Lutheran
Church, 859 N.W.2d 537 (Neb. 2015)
New Hampshire - Berthiaume v. McCormack, 891
A.2d 539 (N.H. 2006)
North Carolina - Davis v. Williams, 774 S.E.2d 889,
892 (N.C. App. 2015)
Ohio - Southern Ohio State Exec. Offices of Church of
God v. Fairborn Church of God, 573 N.E.2d 172
(Ohio. App. 1989)
Oklahoma - Fowler v. Bailey, 844 P.2d 141 (Okla.
1992)

57a
Oregon - Hope Presbyterian Church of Rogue River v.
Presbyterian Church (U.S.A.), 291 P.3d 711 (Or.
2012)
Pennsylvania - Presbytery of Beaver–Butler v. Middlesex Presbyterian Church, 489 A.2d 1317 (Pa.
1985)
South Carolina - All Saints Parish Waccamaw v.
Protestant Episcopal Church in Diocese of South
Carolina, 685 S.E.2d 163 (S.C. 2009)
South Dakota - Foss v. Dykstra, 319 N.W.2d 499 (S.D.
1982)
Texas - Masterson v. Diocese of Northwest Texas, 422
S.W.3d 594 (Tex. 2013)
Utah - Laumalie Ma’oni’oni Free Wesleyan Church of
Tonga v. Ma’afu, 440 P.3d 804 (Utah 2019)
Wisconsin - Wisconsin Conference Bd. of Trustees of
United Methodist Church, Inc. v. Culver, 627
N.W.2d 469 (Wisc. 2001)
States adopting hybrid neutral principles
California - Episcopal Church Cases, 198 P.3d 66
(Cal. 2009)
Connecticut - Episcopal Church in Diocese of Connecticut v. Gauss, 28 A.3d 302 (Conn. 2011)
Georgia - Presbytery of Greater Atlanta, Inc. v. Timberridge Presbyterian Church, Inc., 719 S.E.2d
446 (Ga. 2011); Rector, Wardens & Vestrymen of
Christ Church in Savannah v. Bishop of Episcopal Diocese of Ga., Inc., 718 S.E.2d 237 (Ga.
2011)

58a
Kentucky - Cumberland Presbytery of Synod of the
Mid-West of Cumberland Presbyterian Church
v. Branstetter, 824 S.W.2d 417 (Ky. 1992)
New York - Episcopal Diocese of Rochester v. Harnish,
899 N.E.2d 920 (N.Y. 2008)
Tennessee - Church of God in Christ, Inc. v. L. M. Haley Ministries, Inc., 531 S.W.3d 146 (Tenn. 2017)
Virginia - Falls Church v. Protestant Episcopal
Church in U.S., 740 S.E.2d 530 (Va. 2013)
States adopting hierarchical deference
Florida - Mills v. Baldwin, 377 So.2d 971 (Fla. 1980).
Kansas - Heartland Presbytery v. Presbyterian Church
of Stanley, Inc., 390 P.3d 581 (Kan. App. 2017)
Michigan - Bennison v. Sharp, 329 N.W.2d 466 (Mich.
App. 1982)
Nevada - Tea v. Protestant Episcopal Church in Diocese of Nev., 610 P.2d 182 (Nev. 1980)
New Jersey - Protestant Episcopal Church in Diocese
of New Jersey v. Graves, 417 A.2d 19 (N.J. 1980)
West Virginia - Church of God of Madison v. Noel,
318 S.E.2d 920 (W.Va. 1984)

